<html>
<title> - FRONTLINE RESPONSE TO TERRORISM IN AMERICA</title>
<body><pre>[Senate Hearing 114-592]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-592

               FRONTLINE RESPONSE TO TERRORISM IN AMERICA

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                      U.S. GOVERNMENT PUBLISHING OFFICE
22-716 PDF                   WASHINGTON : 2017                      
________________________________________________________________________________________     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c0d7c8e7c4d2d4d3cfc2cbd789c4c8ca89">[email&#160;protected]</a>  
       
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
     Brooke N. Ericson, Deputy Chief Counsel for Homeland Security
                  Colleen E. Berny, Research Assistant
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Brian B. Turbyfill, Minority Senior Professional Staff Member
        Robert H. Bradley II, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                            
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Baldwin..............................................     3
    Senator Heitkamp.............................................     4
    Senator Tester...............................................     4
    Senator Portman..............................................     5
    Senator Booker...............................................    27
    Senator Ayotte...............................................    30
    Senator McCaskill............................................    33
Prepared statements:
    Senator Johnson..............................................    39
    Senator Carper...............................................    41

                                WITNESS
                       Tuesday, February 2, 2016

Wally Sparks, Chief of Police, Everest Metro Police Department, 
  Weston, Wisconsin..............................................     6
Hon. William J. Bratton, Police Commissioner, New York City 
  Police Department, New York, New York..........................     8
Rhoda Mae Kerr, President and Chair of the Board, International 
  Association of Fire Chiefs, Austin, Texas......................    10
Edward F. Davis III, Chief Executive Officer, Edward Davis, LLC, 
  and Former Commissioner of the Boston Police Department, 
  Boston, Massachusetts..........................................    13
Mark S. Ghilarducci, Director, California Office of Emergency 
  Services, and the Governor's Homeland Security Advisor, Mather, 
  California.....................................................    15

                     Alphabetical List of Witnesses

Bratton, Hon. William J.:
    Testimony....................................................     8
    Prepared statement...........................................    52
Davis III, Edward F.:
    Testimony....................................................    13
    Prepared statement with attachment...........................    62
Ghilarducci, Mark S.:
    Testimony....................................................    15
    Prepared statement...........................................    98
Kerr, Rhoda Mae:
    Testimony....................................................    10
    Prepared statement...........................................    55
Sparks, Wally:
    Testimony....................................................     6
    Prepared statement...........................................    43

                                APPENDIX

The BENS Report..................................................    64
Statement submitted for the Record from Chief Gregg A. Cleveland.   110
Responses to post-hearing questions for the Record from:
    Mr. Sparks...................................................   114
    Mr. Bratton..................................................   122
    Ms. Kerr.....................................................   126
    Mr. Davis....................................................   132
    Mr. Ghilarducci..............................................   163

 
               FRONTLINE RESPONSE TO TERRORISM IN AMERICA

                              ----------                              


                       TUESDAY, FEBRUARY 2, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:15 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Ayotte, Ernst, Sasse, 
Carper, McCaskill, Tester, Baldwin, Heitkamp, Booker, and 
Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order. I want 
to welcome all of our witnesses.
    The issues that we deal with in this Committee, I think, 
speak right to our mission statement: to enhance the economic 
and national security of America. And what we have here today 
is a hearing that is really going to be talking about what 
happens at the ground level--the men and women who really spend 
their lives trying to protect the rest of us, and the very 
difficult issues that they are grappling with.
    We have Chief Wally Sparks from Wisconsin here. I met him 
at one of our listening sessions as I traveled through 
Wisconsin talking about national security issues. And the way 
that this hearing, from my standpoint, is designed is that we 
want to listen to Chief Sparks, who is trying to prepare for 
what the rest of you have actually had to deal with, and what 
he is trying to grapple with. And then, as we move on down the 
list in terms of the testimony, you can start filling in, at 
that moment, whether you had an active shooter or whether it 
was an act of terrorism that you were having to deal with. Tell 
us what worked, what did not work, and what we have to really 
improve.
    I know that, for Senator Baldwin and I, this hits pretty 
close to home because on August 5, 2012, there was an active 
shooter at the Sikh temple in Oak Creek, Wisconsin. And when 
you look at the webcam from Lieutenant Brian Murphy's patrol 
car, you see the bravery of the men and women who first 
respond, who rush into danger.
    Now, fortunately, Lieutenant Brian Murphy is alive today, 
but he was shot 15 times by the perpetrator of that heinous 
crime. And then Officer Sam Lenda also came on. You can see, 
again, in the video, the bravery of the men and women.
    So I think that it is the responsibility of this Committee 
to make sure that the men and women who capably and 
courageously protect our security have the tools and the 
resources to perform that task. That is really what this 
hearing is about. What tools and resources are required from a 
Federal Government standpoint? How do we prioritize that 
spending?
    The Department of Homeland Security (DHS) has about $1.6 
billion appropriated for grants and the Department of Justice 
(DOJ) has appropriated about half a billion dollars. That is 
about $2 billion that we allocate for grants to help folks like 
you. It sounds like a lot of money, but in a Federal budget 
that is starting to approach almost four thousand billion 
dollars--it is about $3.7 trillion right now--that is about 
0.05 percent of our Federal budget.
    Now, I think that the defense of this Nation, the defense 
of our homeland, is a top priority of the Federal Government. I 
think that we need to prioritize that spending and put that at 
the top of the list.
    So, with that, I will turn this over to Senator Carper, and 
then we also have Senator Heitkamp and Senator Baldwin who 
would like to make some brief opening statements as well.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you very much, Mr. Chairman, for 
holding this hearing. I want to say thank you to Senator 
Baldwin and Senator Heitkamp for proposing this in the first 
place and also thank you to all of you who came here to make it 
real for us. Thank you for what you do with your lives and for 
your service to your communities and to our country.
    Since September 11, 2001 (9/11), the Federal Government has 
worked hard to ensure that those on the front lines in this 
country--our police officers, our firefighters, and our 
emergency medical personnel--are better prepared to help 
prevent and respond to terrorist attacks and natural disasters. 
For example, we have helped local officials develop response 
plans for mass casualty events. We have also helped train 
thousands of law enforcement officers. And we have helped build 
a network of fusion centers, as you know, to deliver more 
timely information to our first responders.
    Of course, we have also provided, as the Chairman has 
alluded to, grant funding for equipment, for personnel, for 
training, and for other needs. I am pleased that the spending 
bill that we just passed in December, signed by the President, 
contains over $1 billion in grant funding to help States and 
localities prepare for and respond to terrorist attacks and 
other disasters.
    The recent tragedies in Paris, Boston, Chattanooga, and San 
Bernardino, however, are a stark reminder that we must remain 
vigilant and ensure as best we can that our first responders 
are ready for anything that might come their way.
    That is why we will be paying close attention next week to 
the President's Fiscal Year (FY) 2017 budget request. We need 
to make sure that it provides the selfless men and women who 
keep us safe with the resources that they need to save lives 
and stay ahead of the threats that we face as a Nation.
    Today's terrorist threats are very different from those 
that we experienced on 9/11.
    Today, we unfortunately know that one or two people with an 
assault weapon or a homemade bomb can create unimaginable havoc 
and throw a whole city into chaos and turmoil. Cities like New 
York, Boston, and Washington, D.C. have been dealing with 
terrorist threats for quite some time. We know that, with the 
help of online radicalization, a terrorist attack can happen 
anytime, anywhere.
    I look forward to hearing from all of our witnesses today 
about how Congress can further help communities, both large and 
small, to be better prepared for the type of terrorist attacks 
that we are witnessing today, such as active shooter events.
    I also want to hear about what else we could be doing to 
stop homegrown terrorism and, extremism--something that I know 
all of our witnesses are familiar with.
    Last December, I introduced legislation to strengthen the 
Department of Homeland Security's efforts to work with 
community leaders in identifying and preventing homegrown 
terrorist threats. It is my hope that we can move this 
legislation soon, so that the Department is better equipped to 
counter the hateful messages put out by the Islamic State of 
Iraq and Syria (ISIS) and other terrorist groups.
    Again, we thank you all for joining us and a special thank 
you to Senators Heitkamp and Baldwin. Thank you.
    Chairman Johnson. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman. I want to thank 
you and Ranking Member Carper for so quickly responding to 
Senator Heitkamp's and my request to hold this important 
hearing.
    Like many of my colleagues, I hear from constituents 
frequently about their very real fears of being attacked in 
their own communities--and these concerns are not unwarranted.
    Just last week, in my home State of Wisconsin, a terrorist 
attack was thwarted. A 23-year-old man had a vicious plan to 
kill, he said, at least 30 people at a Masonic temple in 
downtown Milwaukee. In my initial conversations with the 
Federal Bureau of Investigations (FBI), officials indicated 
that the fusion centers and the FBI databases, such as 
eGuardian, which allows law enforcement to share intelligence, 
were very useful in thwarting this planned attack.
    In my view, we need to find ways to expand the use of these 
tools, while certainly also guarding the privacy of our 
citizens.
    We were fortunate in this case, as we have been in others, 
in preventing the attack. However, there will be undoubtedly 
more attempts to disrupt our way of life. We have to remain 
vigilant and ensure that our first responders have what they 
need to prevent attacks and respond to them if they do occur.
    One of the things that we have been taught in recent years 
is that we must be able to prepare for the unthinkable. If you 
think about 9/11, up until that point, security for commercial 
flights was not designed to address the methods that were used 
by those attackers.
    I am working to address a similar blind spot by improving 
the safety and security of trains that transport hazardous 
materials. Often more than a mile long, these trains carry 
volatile crude oil and other materials past the back yards of 
my constituents and through our downtowns, which are densely 
populated urban areas. And while I am proud to have made some 
headway in including two provisions in our recently passed 
highway bill to improve first responder access to information 
in advance about these trains, I feel that there is still a 
significant safety concern for our citizens.
    So, I look forward to hearing from all of our witnesses 
today about what we can do. I hope that we have some take-homes 
after this hearing and that we have specific actions that the 
Federal Government can continue to take to address and assist 
first responders in their tireless efforts to respond to 
emergencies and keep Americans safe.
    Thank you for all that you do, and thank you for being 
here.
    Chairman Johnson. Thank you, Senator Baldwin.
    I have had other requests, so let us keep this short, OK? 
Senator Heitkamp, 2 minutes.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Chairman Johnson and Senator 
Carper for agreeing to hold today's hearing.
    As Senator Baldwin has said, once Paris happened, the first 
response that I had was: What if I were North Dakota's Attorney 
General (AG) responsible for the Bureau of Criminal 
Investigation? And how well would we perform, compared to the 
people in San Bernardino? How well prepared would we be? And 
you add that on top of these horrific attacks. No part of our 
country is immune. No part of our country is somehow exempt 
from this happening. It is not the left coast or the right 
coast. It can happen right in the heartland, and we found that 
out when, in 2015, the Islamic State of Iraq and the Levant 
(ISIL) declared the Minot Air Base, which is responsible for 
intercontinental ballistic missiles, a terrorist target.
    And so, I am curious about where we go from here. Do you 
get enough information from the Federal Government? Are they 
sharing information? Are there turf protections? Are we, in 
fact, training our first responders to, first off, keep 
themselves safe and not do things that put themselves at 
unnecessary risk, but also to contain the event? What are the 
challenges that you have, as people who think about this, 
immediately after this event? What are you doing today? And how 
can we help? How can we help change outcomes? How can we be 
better partners with those men and women who will always be our 
first responders: the State and local people who are on the 
front lines?
    So thank you for everything that you do. Thank you for 
appearing today. And I look forward to hearing more, learning 
more, and helping to build a stronger Federal-State-local 
partnership to protect all of the citizens of this country.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I appreciate the 
flexibility. I want to thank you, the Ranking Member, and 
Senator Baldwin and Heitkamp for this hearing. I want to thank 
the panel members here today. I appreciate the work that you 
do. It keeps this country safe and, quite frankly, we need to 
defeat ISIS, but we also need to protect our civil liberties. 
And I think that you guys know that, as we move forward. And we 
protect civil liberties by employing best practices and making 
sure that the Federal Government gives you the resources that 
you need to be successful.
    It was about a year ago that we had some in this body who 
turned funding for DHS into a political football. That is 
unacceptable. Quite frankly, you need consistency, you need 
continuity, and you need predictability. As first responders 
and emergency personnel at the State and local level, you are 
on the front lines of fighting terrorism in this country.
    So, as this hearing is going to demonstrate, we need to be 
serious about this issue--not play political games with it--and 
give you guys the resources that you need, so that you can do 
your jobs and so that we can hold you accountable for those 
jobs.
    Thank you very much, Mr. Chairman.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Mr. Chairman, I thank you and Senator 
Carper for holding this hearing. We appreciate you all for 
being here.
    I just was in Ohio meeting with some of our folks who are 
local law enforcement in central Ohio, the Columbus area, who 
are part of the fusion center. These are county officials and 
city law enforcement officials. And my question to them was the 
same thing that I always ask our local law enforcement: Are 
these fusion centers working as a two-way communication?
    Usually this panel is populated by Federal law enforcement 
officials, and that is good. And we bring them up, and we talk 
to them about what they are doing. We have three fusion centers 
in Ohio--one in Columbus, one in Cleveland, and one in 
Cincinnati. I also met, by the way, with the FBI last week. Our 
regional office covers half of Ohio. And my concern is that, 
from what I am hearing from local law enforcement, it is 
sometimes a one-way street. In other words, local law 
enforcement is providing information, which is important, but 
often they have a difficult time getting that information back.
    So what I am interested in hearing today, particularly, Mr. 
Chairman, is what kind of information flow do you see coming 
from the Federal Government back to you? That is where I think 
that we can be the most helpful to you in ensuring that the 
citizens that we represent are safe.
    Thank you.
    Chairman Johnson. Thank you, Senator Portman.
    I ask that my written statement be entered in the record, 
without objection.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    Senator Baldwin mentioned the attack that was thwarted on 
the Masonic temple in Milwaukee. I just wanted to very briefly 
read quotes from the foiled perpetrator, Samy Mohamed Hamzeh. 
These are excerpts of quotes that he gave to an FBI informant.
    ``I am telling you, if this hit is executed, it will be 
known all over the world. The people will be scared, and the 
operations will increase. This way we will be igniting it. I 
mean, we are marching at the front of the war, and we will 
eliminate everyone.''
    That is what this hearing is about. That is the enemy that 
we face. That is the mindset of these people who want to 
slaughter Americans in our own homeland.
    So, again, thank you all for your testimony and for your 
service to your communities, to your States, and to this 
Nation.
    And with that, it is the tradition of this Committee to 
swear in witnesses, so if you will all stand and raise your 
right hand. Do you swear that the testimony you will give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Chief Sparks. I do.
    Commissioner Bratton. I do.
    Chief Kerr. I do.
    Mr. Davis. I do.
    Mr. Ghilarducci. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Chief Wally Sparks. Chief Sparks is 
the chief of police of the Everest Metro Police Department (PD) 
in Wausau, Wisconsin. The department serves three communities 
with a total of 18,000 residents. He has 30 years of experience 
in law enforcement and currently serves as president of the 
North Central Chiefs of Police Association. Chief Sparks.

 TESTIMONY OF WALLY SPARKS,\1\ CHIEF OF POLICE, EVEREST METRO 
              POLICE DEPARTMENT, WESTON, WISCONSIN

    Chief Sparks. Good morning. I would like to thank all of 
you for this invitation. I am truly honored to be able to speak 
before this Committee today. When I was advised of who I was 
testifying with, and especially who I was testifying in front 
of, I was quite surprised that a local police chief from 
Wisconsin was included in this group.
---------------------------------------------------------------------------
    \1\ The prepared statement of Chief Sparks appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    But then, as I looked at the subject matter of the hearing 
and realized how the topic of terrorism in America impacts each 
and every single law enforcement officer in this country, I 
finally understood why it was important for me, or somebody 
like me, to be here.
    I am sure that nobody on this Committee has ever heard of 
the Everest Metro Police Department before, yet when it comes 
to my distinguished colleagues, just the abbreviation of the 
New York Police Department (NYPD) is all that is needed, and 
everyone knows exactly what we are talking about.
    But as I began to put that into perspective, I realized 
that there is only one NYPD--and only one Los Angeles Police 
Department (LAPD) or Chicago PD, for that matter. They 
essentially have no peers in this country. Everest Metro PD, on 
the other hand, probably mirrors similarly-sized departments 
and communities in each and every State. When I look at the 
States that each of you serve and represent, I imagine that 
every one of you has your version of an Everest Metro PD or a 
Marathon County.
    And here are just a few statistics that underscore that 
point: 84 percent of all sworn officers in the United States 
belong to local police and sheriff's departments. When it comes 
to local police departments, 86.2 percent have less than 50 
officers and 72.8 percent have less than 25 officers. For 
sheriff's departments, 77 percent have less than 50 deputies 
and 58.3 percent have less than 25 deputies. Perhaps the most 
telling statistic is that 49 percent, or almost half, of all 
law enforcement agencies employ fewer than 10 full-time 
officers.
    I provide these statistics because I feel that it is 
important for this Committee to understand that, while the 
events in larger metropolitan areas tend to dominate the 
headlines, the majority of policing efforts occur in smaller 
communities. The size of a law enforcement agency can have a 
significant impact on the delivery of policing services in a 
community, particularly when discussing threats like terrorism.
    So while I speak for our particular department, I am 
probably echoing the voices of thousands of other local police 
chiefs and sheriffs across this Nation who face the same 
concerns and challenges that I do.
    Even though our department is staffed very lean with 25 
officers, we are still able to provide a relatively high level 
of training, which you will find included in my written 
testimony. This is likely not the case for those 49 percent of 
departments with less than 10 officers, however.
    We also understand that terrorists typically look for soft 
targets, and they are learning and adjusting to how we, as law 
enforcement, respond to threats. I think that there has been a 
false perception in many communities, people think, ``It would 
never happen here.'' But that reality is changing, with law 
enforcement leaders across the country now remarking, ``It may 
very well happen here, and if it does, are we prepared?''
    So the first emphasis should be on making sure that all of 
our law enforcement officers are given the proper training and 
equipment needed to respond to such an event. There is no 
Federal blueprint on what every law enforcement officer should 
be trained in nor on the necessary equipment needed for a 
response.
    There should be more of a coordinated effort between the 
Federal, State, and local agencies to make sure that local 
agencies are properly trained and equipped. Failure to address 
this will result in greater loss of life when these incidents 
occur and will likely spur more attacks on smaller communities 
as terrorists realize that they offer relatively soft targets.
    The other key piece lies in effectively engaging and 
utilizing all law enforcement officers in the effort to prevent 
attacks. In the wake of the San Bernardino incident, there has 
been a significant focus on the ``If you see something, say 
something'' campaign. These calls will likely come into local 
PDs as suspicious activity complaints. If the local law 
enforcement agencies are not aware of critical information 
pertaining to subjects in their community who are on the State 
or FBI's radar, then we are missing a key piece of the 
preventative puzzle.
    In my 30-plus years in law enforcement, dialogue with the 
Federal agencies has generally been a one-way street. This has 
improved with increased efforts to expand information sharing 
through the creation of fusion centers and Joint Terrorism Task 
Forces (JTTFs). However, the information gap still exists.
    We need law enforcement leaders that will break down 
parochial boundaries and cut through bureaucratic policies and 
red tape. We must build closer relationships at every level and 
push critical information down to our frontline officers, if we 
are going to successfully thwart attacks. Our officers need 
information in real time so that they can properly assess 
potential threats and respond accordingly.
    I want to thank each of you for your valuable time today, 
and I look forward to answering any questions that you may 
have.
    Chairman Johnson. Thank you, Chief Sparks.
    I originally mentioned the dashboard camera from the Oak 
Creek incident, but with our next witness I also have to 
mention the iconic pictures of the brave men and women of the 
NYPD, the New York Fire Department (FDNY), and the Port 
Authority of New York and New Jersey (PANYNJ), as they walked 
up the stairs of the World Trade Center (WTC), walking into 
danger. That is really, again, why we are so appreciative of 
your efforts.
    Our next witness represents those fine men and women. 
Commissioner William Bratton is the 42nd police commissioner of 
the city of New York, the second time he has held the post. Mr. 
Bratton served as the Los Angeles police chief from 2002 to 
2009, making him the only person ever to lead the police 
agencies of the two largest cities. Commissioner Bratton.

   TESTIMONY OF THE HONORABLE WILLIAM J. BRATTON,\1\ POLICE 
 COMMISSIONER, NEW YORK CITY POLICE DEPARTMENT, NEW YORK, NEW 
                              YORK

    Commissioner Bratton. Good morning. My thanks to the 
Committee for the opportunity to speak with you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Commissioner Bratton appears in the 
Appendix on page 52.
---------------------------------------------------------------------------
    The issue before us, the frontline response to terrorism in 
America, is more pressing than at any time since 9/11. We 
believe that New York City, where I am the police commissioner, 
remains the top target for terrorists in the United States. 
Since the first bombing of the World Trade Center in 1993, New 
York City has been the target or nexus for at least 20 
terrorist plots--more than any other American city. There have 
been four major cases in just the past 2 years.
    Since 9/11, the NYPD has spent hundreds of millions of 
dollars in Federal funding, city and State monies, and private 
grants to counter that threat. My predecessor as police 
commissioner, Raymond Kelly, oversaw the creation of a 
sophisticated intelligence and counterterrorism capability. It 
was highly capable, but it was limited by significant head 
count restrictions, even though it was staffed with more than 
1,000 personnel. Over the past 2 years, Mayor Bill de Blasio, 
whom I work with, has addressed that by providing the largest 
personnel and equipment allocations in the NYPD's history. 
Because of these allocations, we are evolving in order to face 
the increasingly diffused and complex threat picture.
    That picture now includes ISIS and lone-wolf actors--
threats that barely existed 2 years ago and certainly did not 
exist on 9/11. These entities--ISIL and others--attempt to 
attract recruits through promises of valor, belonging, and 
empowerment. While we are always on guard for the spectacular 
al-Qaeda-style attack, with ISIS, we have seen a shift toward 
low-tech, low-cost, and high-impact attacks, oftentimes 
inspired and not directed by ISIS. November's Paris attacks 
left 130 people dead. In San Bernardino, 14 were killed. In New 
York City, this past spring, we saw three separate plots--all 
influenced by ISIS--to either behead people, bomb public 
events, or attack police, specifically.
    But we cannot address these threats without partners. Two 
years ago, I directed John Miller, my deputy commissioner for 
intelligence and counterterrorism, to execute a ``collaborative 
reset'' with our closest allies: the FBI, the Secret Service, 
DHS, FDNY, and PANYNJ. Today we believe that we have seamless 
relationships with all of these agencies. By way of example, 
the FBI sits in on the NYPD's intelligence case meetings, and 
we sit in on their meetings. We have also worked to improve the 
NYPD's intelligence capabilities.
    For more than a decade, with the help of the New York City 
Police Foundation, we have placed NYPD liaison officers 
overseas, where they work with and learn from local law 
enforcement agencies. We currently have 11 stations and have 
recently added one in Australia, as well as seconding an 
officer to Europol. By getting real-time, on-the-ground insight 
into overseas terrorist attacks--in Tunisia, France, Australia, 
and Canada--the liaison program has helped us redesign our 
tactical posture in New York City.
    Given the nature of the threat, however, intelligence must 
be accompanied by improved response and prevention 
capabilities. Our primary asset in this regard has been our 
Emergency Service Unit (ESU), the best trained police officers 
in the world. But ESU is small, fewer than 600 officers, and 
needs to be mobile. So for years, critical sites in New York 
were instead guarded by patrol officers who were borrowed each 
day from routine precinct assignments. These officers were 
neither trained nor equipped to counter the type of threats 
that they were deployed against. With the help of Mayor de 
Blasio and the New York City Council, we created the Critical 
Response Command (CRC). This new unit, CRC, is a dedicated team 
of over 500 specially-trained officers with special weapons and 
enhanced body armor and vehicles. They are briefed on the 
latest intelligence, deployed daily to potential terrorist 
targets, and prepared to mobilize for active shooter or 
terrorist events.
    We have also revamped our citywide task force, the 800-
member Strategic Response Command, which is primarily used for 
crime response and disorder control. They, too, have been 
trained and equipped for the new threat picture--all of them 
are equipped with long guns, for example.
    Today, we have 1,800 officers who are capable of being 
deployed with special weapons across the city. That capability 
is unmatched by any other city.
    Despite this, it remains likely that the first officers on 
the scene of any event will be patrol officers. Accordingly, we 
have already trained over 3,500 of our officers in active 
shooter tactics in a 2-day training. We will eventually be 
training all 35,000 officers. In the training, officers learn 
how to form small ``contact teams'' and move toward the threat, 
with the aim of reducing the gunmen's ``time on target'' and 
saving lives. We will continue the training until all of our 
patrol officers have been trained.
    And through our 16,000-member Shield Program, a public-
private partnership, we have already trained 20,000 civilians 
in what to do--run, hide, or fight--if they find themselves in 
such a situation. But, again, these threats cannot truly be 
addressed without partners. For example, we have worked with 
the New York City Fire Department to develop ways to get to the 
victims of a Paris-style or Mumbai-style attack as quickly as 
possible. The Rescue Task Force uses the new tactical teams 
that we have developed to provide force protection for 
paramedics in ``warm zones'' where shooting has ended, while 
other teams--primarily ESU officers--go after the terrorists or 
gunmen simultaneously in ``hot zones.''
    Our efforts go far beyond these particulars, but being 
mindful of time, my descriptions of a small number of others 
will be very brief.
    We have expanded the number of our bomb detection K-9 
dogs, known as ``vapor wake dogs.'' We have added almost $160 
million of technology, including the issuance and development 
of smartphones to all 36,000 officers. The apps on these 
devices have been paid for, in many instances, by Department of 
Homeland Security grants. It is technology unrivaled by any 
police organization in the world.
    We also conduct many multi-agency tabletop exercises, which 
we have had the good fortune to have the Secretary of Homeland 
Security recently attend in New York.
    And under the leadership of FBI Assistant Director Diego 
Rodriguez, the 35-year partnership in our Joint Terrorism Task 
Force--the first one in America--continues. One hundred of my 
detectives are assigned to that unit.
    New York City faces threats like no other and has invested 
like no other, in terms of dollars, personnel, and 
partnerships.
    I, along with my colleagues, would be happy to answer your 
questions relative to this testimony and any other issues that 
you might have interest in. Thank you.
    Chairman Johnson. Thank you, Commissioner Bratton.
    Our next witness is Rhoda Mae Kerr. Ms. Kerr is a fourth 
generation firefighter and currently serves as the fire chief 
of the Austin Fire Department. She is also president of the 
International Association of Fire Chiefs (IAFC) and the vice 
president of the Metropolitan Fire Chiefs Association. Ms. 
Kerr.

  TESTIMONY OF RHODA MAE KERR,\1\ PRESIDENT AND CHAIR OF THE 
 BOARD, INTERNATIONAL ASSOCIATION OF FIRE CHIEFS, AUSTIN, TEXAS

    Chief Kerr. Thank you. Good morning, Chairman Johnson, 
Senator Carper, and Members of the Committee. I thank you for 
allowing me to testify here today. I am honored that I get to 
be the lone representative of the fire service in this great 
country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Chief Kerr appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    The International Association of Fire Chiefs represents 
more than 11,000 members and leaders of the Nation's fire, 
rescue, and emergency medical services (EMS). It is important 
to recognize that the terrorist threat is evolving. The attacks 
on 9/11 were carried out by a foreign terrorist group using a 
coordinated strategy. The attacks were designed to generate 
media attention and public fear.
    As you mentioned, over the past years, we are seeing a 
different terrorist threat. The incidents in Boston, Paris, 
Garland, Chattanooga, and San Bernardino used a variety of 
tactics. They were carried out by lone wolves or smaller groups 
of individuals. They used tactics like gunfire and explosives. 
In some cases, they may have communicated with overseas actors. 
But in all cases, the planning for these attacks was hard to 
detect.
    The Nation's fire and emergency service is adapting to 
respond to both large-scale and localized threats. For example, 
we worked with our law enforcement partners and other 
stakeholders to remove silos that were common prior to 9/11. 
Also, the IAFC and other organizations are educating our 
members and developing resources to help prepare for the wide 
variety of threats. We look forward to partnering with Federal, 
State, tribal, and local agencies, as well as other 
stakeholders, to protect our communities.
    In order to prepare for this new threat environment, local 
fire departments require accurate information about threats to 
our jurisdictions. Federal agencies like DHS and FBI can 
educate us about the new tactics, techniques, and procedures 
that terrorists use. Because many fire chiefs do not have 
security clearances, this information should be transmitted at 
the For Official Use Only (FOUO) or unclassified level. We need 
to be aware of what the terrorists' plans are, not the sources 
or the methods used to obtain them.
    Like many major fire departments across the country, I have 
firefighters stationed at my local fusion center. However, 
there still needs to be greater fire and EMS involvement in 
fusion centers. Also, the IAFC recommends that fire chiefs 
reach out to local FBI Joint Terrorism Task Force offices and 
local law enforcement agencies to stay informed.
    We also support the National Counterterrorism Center's 
(NCTC's), Joint Counterterrorism Assessment Team, which invites 
first responders to work with Federal intelligence analysts.
    Fire departments can be partners in the information-sharing 
system. The IAFC encourages fire departments to take part in 
the Nationwide Suspicious Activity Reporting Initiative. Much 
like evidence of domestic abuse, firefighters can report 
evidence of suspicious activity, such as caches of explosives 
or civilians asking for details about emergency response 
procedures.
    Fire and EMS departments also can educate law enforcement 
agencies about evidence of the use of fire or hazardous 
materials as weapons. Local fire and EMS departments also need 
to plan and exercise for the response to a major terrorist 
attack. They must develop capabilities to provide rapid on-
scene care, triage, and transport to patients. They must also 
plan an exercise with local law enforcement officers, emergency 
management personnel, and public health officials for these 
events.
    Command and coordination are important aspects of an 
effective response. The IAFC supports the implementation of the 
National Incident Management System (NIMS). NIMS implementation 
requires constant use and preparedness exercises to ensure its 
adoption by all emergency and support functions.
    Many fire and EMS departments also have mutual aid 
agreements with surrounding jurisdictions. These agreements 
support localized and regionalized planning and 
interoperability. For example, specialized response 
capabilities, like a Hazardous Materials (Hazmat) Team, can be 
shared in a region.
    An interoperable communications system is also a vital 
component of an effective response, and we thank Congress for 
its leadership in allocating that 20 megahertz (MHz) in the 700 
MHz band and for its $7 billion to help build a nationwide 
broadband network. The First Responder Network (FirstNet) is 
expected to focus on data communication first, and then, to 
develop voice communications capability in the future.
    In the meantime, local jurisdictions must rely upon the 
land mobile radios, and there are several large cities, Boston 
included, that still rely upon the T-band for interoperable 
communications. We encourage you to look at the statutory 
requirements that are going to require them to sell that T-band 
network.
    I am aware of the time here, so I am going to try to wrap 
up my remarks very quickly.
    In order to respond to the wide variety of terrorist 
threats, the Federal Government provides grants like the Urban 
Areas Security Initiative (UASI) and the State Homeland 
Security Grant Program for specialized equipment, training, and 
exercises. Local fire and EMS departments use this funding to 
build and sustain mass casualty and hazmat response 
capabilities. In addition, these funds are used to staff fusion 
centers, and the grants also provide a vital incentive for 
stakeholders to collaborate on terrorism response planning.
    Again, as mentioned, it is important to note that the 
public can play a vital role in terror response. The Stop the 
Bleed campaign is working to educate the public about how to 
provide hemorrhage control with the use of tourniquets during a 
terrorist attack or an active shooter event. Local fire and EMS 
departments can build upon public education programs like 
Austin's ``Do Your Part'' program to provide the training.
    I would like to thank Congress for its focus on homeland 
security preparedness for first responders, and I am going to 
thank you all. I am going to close out because I am over my 
time. I am going to thank the Committee for the ability to 
represent the fire and emergency service today. The terrorist 
threat has evolved, and the Nation's fire and EMS systems and 
departments are adapting to meet this threat. In order to be 
prepared, it will require a partnership of Federal, State, and 
local agencies, along with the private sector and the American 
public. And I look forward to working with you all on these 
efforts.
    Thank you.
    Chairman Johnson. Thank you, Chief Kerr.
    Our next witness is Ed Davis. Mr. Davis is the president 
and Chief Executive Officer (CEO) of Edward Davis, LLC, a 
security and business strategy firm. Mr. Davis served as the 
police commissioner of the city of Boston from December 2006 
until October 2013 and he led the local response to the 2013 
Boston Marathon bombing. Mr. Davis.

 TESTIMONY OF EDWARD F. DAVIS III,\1\ CHIEF EXECUTIVE OFFICER, 
EDWARD DAVIS, LLC, AND FORMER COMMISSIONER OF THE BOSTON POLICE 
               DEPARTMENT, BOSTON, MASSACHUSETTS

    Mr. Davis. Good morning, Chairman Johnson, Ranking Member 
Carper, and distinguished Members of the Committee. Thank you 
for inviting me to participate in the ``Frontline Response to 
Terrorism in America'' hearing. This is a critically important 
topic that touches each and every one of us and is in the 
forefront of the daily news across the country and throughout 
the world. It may be the active shooter incident in a 
conference room that devastated a community in San Bernardino 
or improvised explosive devices (IEDs) at the Boston Marathon 
finish line that destroyed the lives of many of my fellow 
Bostonians. The terrorists who commit these heinous acts are 
radicalized here and abroad, but the theme and the intent is 
the same: chaos and the destruction of civilian populations, 
offering no quarter to women or children. We must stop it, and 
we must do so in an urgent and coordinated fashion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davis appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    Today, Commissioner Evans and Mayor Walsh admirably protect 
the city of Boston and do a great job in dealing with 
terrorism. But in 2014, I testified before this Committee on 
what worked and what did not work during the Boston Marathon 
bombing response. At that time, I recognized the deceased. 
Again today, I shall do the same: 8-year-old Martin Richard, 
Krystle Campbell, Lingzi Lu, and Massachusetts Institute of 
Technology (MIT) Police Officer Sean Collier. I also recognize 
every other victim in the United States, and those abroad, 
whose lives have been senselessly taken by terrorists. We can 
never forget them.
    Progress has been made since we dealt with the Boston 
tragedy. We are seeing improvements in the quality of 
intelligence, coordination of agencies, sharing of information, 
training, and equipment. Game-changing technologies have been 
developed at a rapid rate, and first responders, including the 
medical community and fire departments, are receiving life-
saving training and equipment, like the tourniquets issued to 
all Boston police officers after the incident.
    Recent terrorist attacks in San Bernardino, Chattanooga, 
and Garland, Texas demand a coordinated, common-sense response.
    Community policing plays a very important role in the 
prevention of these incidents. My former colleagues have long 
recognized the effectiveness of community policing and are 
laser focused on building community relationships, 
transparency, and accountability. This becomes most effective 
when reaching out to community members that are sometimes in 
the shadows, those that do not attend community meetings or 
religious services, and those activist groups that never sit 
down with law enforcement officials. We need to move beyond our 
comfort zone if we really want change and the important 
information needed to prevent these attacks. Community policing 
efforts need to be continuously and properly funded and trained 
up. They should also be audited.
    Intelligence gathering and sharing is another critical 
prevention tool utilized by Federal, State, and local agencies 
to fight terrorism. Fusion centers across the country provide 
crucial information every day, in real time, to multiple 
agencies as well as forward redacted information to the private 
sector. Their value for prevention and crisis response 
management has been proven time and time again. Fusion centers 
should continue to meet annually to discuss issues, needs, 
concerns, and trends--what is working and what is not. Funding 
needs to be increased in order to attract talented analysts and 
grow properly managed and effective fusion centers that 
coordinate intelligence from all levels of government.
    Since 2013, intelligence sharing among agencies continues 
to improve. Impediments have been removed. Federal, State, and 
local law enforcement need to continue working together as 
equal members of Joint Terrorism Task Forces across the country 
and in fusion centers, with unrestricted access to information 
that could identify terrorists in their early stages and 
prevent catastrophic events. However, separate systems are ripe 
for dysfunction. Any deterrent to this seamless coordination 
needs to be extinguished.
    Intelligence gathering occurs in this country, 
domestically, every day. For 35 years, I have been a police 
officer working on drug cases and organized crime cases. We 
collect intelligence. We cannot be afraid to recognize that 
fact and to manage it properly with the proper Federal 
oversight. We need to look at what is happening, pay attention 
to it, and make sure, as Senator Tester said, that it is done 
constitutionally--but it does happen and it needs to be 
coordinated at the top level of government.
    I am a member of and work closely with the Business 
Executives for National Security (BENS) organization. I have 
included their recommendations, which I think are very well 
thought out and on point, as to what can work to streamline our 
intelligence-gathering services here in the United States.
    In addition to that, there are other things that worked 
really well during the Boston Marathon. Police officers respond 
the way that they are trained. DHS provided us money through 
the Urban Area Security Initiative (UASI) system to do that 
training, and we responded the way that we prepared. That made 
all of the difference in the world. And if you do not train, 
you do not respond properly.
    Social media is extremely important in ``establishing a 
dialogue with people. You cannot establish a relationship in a 
crisis. But social media allows police agencies, fire agencies, 
and other public service entities in a city to connect with 
people, to communicate with them, and to establish a dialogue.
    And, finally, equipment is extremely important. The ability 
to be able to respond, as Commissioner Bratton said, with 
specialized equipment--not to be on display when it is not 
needed, but to be immediately available when the balloon goes 
up, as they say, is extremely important.
    Finally, in closing, what I learned, in my role during the 
terrorist attack in Boston, is that there is no panacea. The 
reality is that such a challenge requires informed and trusting 
community members who are not afraid to speak out, coordinated 
intelligence gathering and sharing among all equal partners who 
strive to prevent attacks, highly trained and well-equipped law 
enforcement, fire, and EMS departments that respond in unison, 
and, finally, all of you to continue to legislatively and 
financially support these important efforts.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Mr. Davis.
    Our final witness is Mr. Mark Ghilarducci. I think that I 
got that right. Mr. Ghilarducci serves as the director of the 
California Governor's Office of Emergency Services and 
previously served as the Secretary of the California Emergency 
Management Agency. He also serves as the Governor's homeland 
security advisor (HSA), where he oversees Statewide public 
safety, emergency management, emergency communications, 
counterterrorism efforts, and the State Threat Assessment 
System (STAS). Mr. Ghilarducci.
    Senator Carper. First thing, would you just pronounce your 
name for us?
    Mr. Ghilarducci. Ghilarducci.
    Senator Carper. Thank you.
    Chairman Johnson. I was pretty close.
    Senator Carper. That was great.
    Mr. Ghilarducci. Pretty close, yes.
    Senator Carper. I am sure that we have butchered it in 
worse ways than that.
    Mr. Ghilarducci. No. Very good. Thanks.

   TESTIMONY OF MARK S. GHILARDUCCI,\1\ DIRECTOR, CALIFORNIA 
   OFFICE OF EMERGENCY SERVICES, AND THE GOVERNOR'S HOMELAND 
              SECURITY ADVISOR, MATHER, CALIFORNIA

    Mr. Ghilarducci. Well, good morning everyone, and, 
particularly, Chairman Johnson, Ranking Member Carper, and 
ladies and gentlemen of the Committee. Thank you so much for 
the invitation to address you on this important topic. It is 
really an honor to represent California and the National 
Governors Association (NGA) today to and to discuss the work 
that we are engaged in from both a homeland security and an 
emergency management perspective.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ghilarducci appears in the 
Appendix on page 98.
---------------------------------------------------------------------------
    As California's director of the Governor's Office of 
Emergency Services and homeland security advisor to Governor 
Brown, my portfolio and responsibilities straddle both homeland 
security and emergency management. As a result, I bring a 
unique and nuanced perspective to bear today as my 
``aperture,'' so to speak, for viewing and working on many 
diverse and complex disasters and emergencies--whether man-made 
or the result of natural circumstances--is wide open.
    The State's and the Governor's homeland security advisor 
plays a critical role in ensuring that objectives, priorities, 
and collaborative operational actions remain coordinated within 
States and with local governments. The chief executive of a 
State is ultimately responsibile for public safety and must be 
kept informed and engaged. The homeland security advisor, who 
is the Governor's point person on statewide security, must be a 
focal point for Federal-State-local coordination and 
collaboration to ensure a coordinated and proactive posture in 
support of local government and the State infrastructure. 
Anything other than this undermines the larger unity of effort 
and the common operating platform necessary to detect, deter, 
prevent, protect, respond to, and recover from a potential act 
of terrorism.
    As seen with the San Bernardino case, we continue to 
experience challenges in obtaining pieces of intelligence, in 
our ability to connect the dots, and in the lead-up to a 
possible act of terrorism. There were a number of signs 
associated with the suspects' actions and the related 
engagement with co-conspirators that we, as an enterprise, were 
unable to acquire.
    Some of this is due to the use of encryption technology by 
the bad guys. Some is due to legal provisions in place for 
gaining access to or initiating the tracking of suspected 
homegrown violent extremists (HVE). But some aspects of this 
challenge can be still attributed to gaps in information 
sharing and communication across all levels.
    In recent years, homegrown violent extremism and 
cybersecurity threats have evolved in fundamental ways and, in 
many ways, we are still reactive rather than proactive in terms 
of countering these evolving threats. This needs to change. 
Built into our homeland security enterprise must be nimbleness 
and proactiveness, so that we can get out and remain out in 
front of these threats. This needs to have its foundation in 
empowerment at the local and State levels, and it should start 
with information sharing.
    Currently, there exist many organizations engaged in this 
intelligence arena, including the FBI, Department of Homeland 
Security, the Department of State (DOS), State law enforcement, 
local law enforcement, the fusion centers, and the 
international intelligence community.
    There remain information and intelligence stovepipes and 
organizational protocols protecting designated proprietary 
information that needs to be shared. Plots and terrorist 
actions are carried out in communities at the local level and 
within States. The impacts of such events, of course, are felt 
nationally and internationally. This effort must be approached 
as one team, fighting one fight, so that we can, together, 
remain coordinated and lean forward as legally as possible, 
leveraging all levels of government capabilities so that we can 
all be on the same page in the effort to detect, deter, and 
protect lives and property.
    Currently, we as a Nation--local, State, and Federal--are 
not optimally suited, in my humble opinion, to proactively 
prevent evolving HVE-style threats. DHS remains a good partner, 
but needs continual evaluation in order to be consistent with 
current threat streams. Its coordination and communications 
could be improved. Funding, training, and information sharing 
can be inconsistent and there needs to be more robust 
coordination with the homeland security advisors, Governors, 
and State top-level homeland security officials when engaging 
with locals and/or private entities within States.
    With respect to fusion centers, there are 6 centers in 
California, with some 72 across the country, and they are all 
essentially frontline components to our Nation's homeland 
security. Over the last several years, we have been forced to 
evolve into all-hazard, all-crime centers in order to justify 
existence. This has spread these centers thin at times, with 
regard to their mission focus, and forced them to become 
distracted at times from their core mission of 
counterterrorism.
    In California, our fusion centers are closely coordinated 
by our STAS and oversight is provided by the homeland security 
advisor. These centers, facilitated by local governance boards, 
have incredibly strong public-private partnerships that are 
leveraged to facilitate intelligence and information sharing as 
well as to prepare for and respond to emergencies. This is all 
coordinated at the regional and State levels. Building on these 
best practices and looking at what works in a State the size of 
California is important.
    What worked best in San Bernardino was this exact system. 
The response was very well executed in the overall context, 
where the local authority led the immediate response and was 
supported in a unified command through mutual aid coordinated 
by the region and the State. This included personnel, 
specialized equipment, intelligence and information, 
situational awareness, authorities and clearances of 
regulations, victim services, and recovery assistance.
    Outside of the FBI, which is the lead Federal agency 
supported by components of DHS, there were a few other Federal 
agencies that provided direct services, incident funding, or 
mutual aid assistance in a coordinated way, as did California's 
mutual aid and standardized emergency management system. This 
should be highlighted as a best practice and used as a 
performance metric in modeling a strong unity of effort. The 
team in San Bernardino was a unified team of local, State, and 
Federal agencies working together with wrap-around and 
integrated incident objectives. The incident required the 
combined efforts of multiple organizations beyond law 
enforcement, to include fire and EMS, public health, emergency 
management, telecommunications, and faith-based nongovernmental 
organizations, just to name a few.
    I am proud to say that the relationship between local, 
State, and Federal agencies in California is very strong, and 
this was evidenced by the actions of city, county, State, and 
Federal responders who came together in San Bernardino with the 
common objectives of saving lives, protecting further loss of 
life, and neutralizing a moving threat. This very dynamic and 
dangerous situation demanded close coordination and 
communications, and its success can be attributed to excellent 
relationships, good training, appropriate equipment and 
supplies, and robust coordination at all levels.
    Nevertheless, San Bernardino did present lessons to be 
learned, with gaps and challenges, particularly, with 
information and intelligence sharing at all levels still being 
a challenge and not at the level or quality that needs to be in 
place to fully safeguard this country.
    As an HSA, I require timely and regular intelligence 
updates during an event of San Bernardino's magnitude to keep 
the Governor informed, to engage with my local and Federal 
counterparts, and to coordinate the statewide homeland security 
and mutual aid mission that I spoke of previously.
    When an event like San Bernardino occurs, we must be 
careful not to revert back to not wanting to share 
``proprietary'' information. The FBI in the San Bernardino case 
received strong support from the Joint Regional Intelligence 
Center (JRIC), located in Norwalk, California. But along the 
way, it became a one-way information-sharing relationship 
between the FBI and that fusion center. This impacted the 
fusion center's communications responsibilities to the State. 
This presented challenges and resulted in gaps in relevant 
information getting to senior leaders and decisionmakers, who 
needed to be kept informed, particularly, when the news was 
reporting the ``proprietary'' information through open-source 
media. This required the development of a time consuming work-
around to obtain necessary information at a number of critical 
junctions at the information-sharing stage.
    This must be one team, fighting one fight. With all of the 
money and infrastructure established since 9/11 to safeguard 
this country, we need to move past ``proprietary'' if we are 
truly going to function in a manner that allows us to protect 
the American people and maximize our total unity of effort.
    In closing, let me reinforce that it is critical that we, 
as an enterprise, understand that the threat landscape 
continues to shift toward a more diffuse, amorphous threat that 
focuses on homegrown radicalization and lone-wolf actors, who 
are inspired by foreign terrorist organization's propaganda and 
extreme ideologies, and are leveraged to act in any way 
possible in all of our communities--large and small. This is a 
new norm, just as deadly and much harder to counter. We must 
remain vigilant, but also nimble and proactive enough to 
address this evolving threat.
    Enhanced training, adequate funding, the maintenance of 
equipment and resources, and that collective unity of effort 
are all absolutely necessary in order to meet these 
requirements.
    Thank you for the opportunity to testify. I would be happy 
to answer your questions.
    Chairman Johnson. Thank you, Mr. Ghilarducci.
    I really appreciate the attendance of my colleagues here. 
There are two choices: either limit the questions to 5 minutes 
or limit them to 7 minutes, but I am going to use the gavel. So 
we will keep it at 7, but I do not want answers going beyond 7 
either. So let us discipline ourselves to be respectful of 
everybody's time.
    Chief Sparks, I want to start with you. I get a feeling 
Senator Portman is going to be talking about information coming 
down the chain. I really want to talk about the grant programs 
that actually work, the coordination--we have heard that term a 
number of times--with other departments, both big and small. 
Can you just speak to which grant programs are essential, which 
ones work, and hopefully which ones could be improved upon?
    Chief Sparks. Well, the problem is, especially for smaller 
agencies, it is really difficult to get some of those grant 
funds down to the local level so that we can utilize them for 
some of the training and equipment that we need. We 
particularly like the Community Oriented Policing Services 
(COPS) grant. We applied for a COPS grant, and typically what 
we saw was that, in Wisconsin, they went to the large cities. 
They went to Milwaukee and Madison, and very little filtered 
down to the local level.
    But, as you heard from some of the other people on the 
panel, it is critical--that training is critical. Like Mr. 
Bratton said, in New York they have special teams that are 
specifically trained with the equipment that they need. But, in 
rural communities and in smaller departments, that response is 
going to be from frontline patrol officers. So, whatever 
equipment they have in their squads is going to be used to 
respond. And, in smaller communities, you may have only one or 
two officers, so you are going to have people coming from 
multiple departments trying to go in there. So, we need to be 
able to have grants that can be designed, not only for the 
smaller communities, but presented in a fashion that encourages 
the communities to work together and to train together.
    In the county that I work in, we have nine law enforcement 
agencies, excluding State and Federal. And only three of those 
have probably the frontline training that they need to respond 
to active shooters and provide emergency medical treatment 
through Tactical Emergency Medical Specialists (TEMS) and 
provided equipment--and each of our officers carry that 
equipment.
    The other six agencies really have no level of training, 
and if we have an incident, we are going to be working with 
them. So it is important that you can funnel funds through your 
grant programs that are designed to--maybe on the ``train-the-
trainer'' programs through the local municipalities, start 
funneling grant funds through a technical college system, where 
you can put them out regionally through the State and 
encourage--or maybe even tie into that funding--the idea that, 
at the county level, you will train the trainers, but the 
caveat is that you have to reach out to the other 
municipalities that provide that training.
    Chairman Johnson. So, it takes just a lot of time and 
resources to write a grant, correct?
    Chief Sparks. Exactly.
    Chairman Johnson. So, I think that potentially one of the 
solutions, from an overall Federal standpoint, is determining 
how we can help the smaller communities, so that you can spend 
the time training rather than grant writing. And I think that 
we are all mindful of that. Let us face it. The thwarted plot 
was in Milwaukee, but no community is safe. So I think that we 
really need to be mindful of that.
    Commissioner Davis, you talked about the need for 
intelligence-gathering capability explained and how we are 
gathering it, but then we always hear about stovepipes. Can you 
speak to the problems that we are still running into and what 
needs to be done to continue to lower those stovepipes, so that 
we actually do have what I consider to be the first line of 
defense against these terrorist acts, an effective 
intelligence-gathering capability, while being mindful of our 
civil liberties?
    Mr. Davis. Certainly, Senator. So, in being mindful of 
civil liberties and in understanding that intelligence 
gathering does occur, coordination of the various agencies is 
really important. And one of the problems that I see is that, 
if you pick one agency to be in charge of it all, then the same 
kind of problem occurs with some focus on that particular 
agency.
    If this goes up to the level of the Director of National 
Intelligence (DNI) Office, then the control is happening--or 
the oversight, the auditing, and the sort of direction of best 
practices is occurring at the highest levels of government, and 
it is not vested in the one agency or the two agencies that are 
picked out among equal players. And I really think that that is 
important. Anytime that you have silos, you have the 
possibility of missing something. And it has happened over and 
over again, and based upon my colleague's testimony in the San 
Bernardino case, it seems to have happened again there. And I 
think that it will continue to happen until there is a coach, 
somebody that is in charge of the whole thing that says that 
you have to play together properly. It is like a sports team.
    Chairman Johnson. Talking about playing together, kind of 
going back to Chief Sparks' problem in a smaller community, 
again, being mindful of the fact that in New York or in 
Boston--maybe talk to Mr. Ghilarducci here--how do we get those 
funds allocated in an efficient way? How do we provide the 
training, so that, not only are we covered in the large 
cities--where, let us face it, those are very severe threats. 
But how do we get the training, the dollars, and the grant 
money down to the smaller communities in an efficient manner? I 
will start with you, Commissioner Bratton. And do you feel some 
kind of responsibility to help that process? Because, 
obviously, I know that you are fighting for the funds, but what 
can we do to help?
    Commissioner Bratton. I am coming at it from a different 
perspective than some of my colleagues, having been in charge 
of Los Angeles (L.A.) and New York, the two largest cities in 
the country. The issue of how to get it down to the smaller 
agencies is not one that I have had to grapple with, but how to 
get funds is certainly one that we have grappled with. Early on 
in the DHS process, as it was being created, the issue of 
control was centered at State government levels, where the 
money would come down through the State and the State would 
take a certain percentage as their fee, if you will. We have 
had great problems with that, both in L.A., and, in some 
respects, even now in New York.
    So I do not have a solution for you on that issue, other 
than to reinforce the importance of those grants--and in no 
city have they been more important than in New York, where we 
have received, since 9/11, about $1.4 billion from the Federal 
Government through various grants, all of which have been part 
of the wide range of activities that we engage in in New York. 
This is similarly the case in Los Angeles, which received 
hundreds of millions of dollars during this time.
    One of the great strengths of democracy, is the way that we 
operate in this country, with all of these thousands of 
communities--18,000 police departments--but it is also one of 
our greatest weaknesses: trying to get them coordinated and 
trying to get them collaborative. And that still remains a very 
significant weakness. How do we get all of these silos, at some 
point in time, to come together?
    Chairman Johnson. I will be respectful of my time as well. 
That will probably be a question for the record--any 
suggestions on what we can do, Mr. Ghilarducci, in terms of 
California. Again, I do not want to take more time because I am 
out it, but I would really like to see your recommendations for 
how we can effectively and efficiently allocate those 
resources, even to the smaller communities as well.
    Senator Carper.
    Senator Carper. Thank you. Thank you very much, everyone.
    Chief Kerr, just give us one really good example of how the 
Federal Government can better support fire and emergency 
service providers. Just give us one good example.
    Chief Kerr. I think that the way that we can help support 
our first responders and the fire and emergency medical service 
is through continued grant funding and the sharing--and this is 
the key, critical thing that we have heard here today--of 
intelligence and information. The fire service does not have 
State or Federal backup or reinforcements. The local fire 
service is it when it comes to responding to terrorist events.
    So it is really important that every entity, whether they 
are in a small, local community or in a large, major urban 
city, has access to the intelligence and the information, so 
that they know what they are going into.
    So I think that it is really important that we can somehow 
fund or prepare people to be part of the Joint Terrorism Task 
Force offices. I am very fortunate in Austin. I have a 
firefighter in the Austin Regional Intelligence Center. I have 
a firefighter that sits on--or is part of--the FBI Joint 
Terrorism Task Force. And I have another firefighter that is 
destined to the National Counterterrorism Center in that regard 
as well. But that is not the case for firefighters around the 
country, and that is something that we definitely have to 
improve.
    Senator Carper. Great. Thank you so much.
    Commissioner Bratton, I think that you may have mentioned 
in your testimony--did you hold up a smartphone? I think that 
you indicated that these smartphones were being provided for, I 
think that you said, 36,000 police officers. Here is my 
question, and I will make you a guided missile. Here we go. I 
remember when we wired every public school classroom in 
Delaware with access to the Internet. We provided a lot of 
computers in the school classrooms and I went, as Governor, to 
visit the schools to see how the teachers were using them--and 
they were using all of the technology for their emails. And I 
said, ``I do not think that is what we had in mind.'' And we 
had to train them. We had to train them. It was a combination 
of using our technical community college to train them and, 
frankly, using younger teachers to teach the older teachers how 
to use the technology.
    What advice would you have for other police departments--or 
fire departments, for that matter--across the country that are 
using this kind of technology, buying the phones and all of 
these apps, to make sure that they actually get their money's 
worth?
    Commissioner Bratton. It is a new field, in the sense of 
how police agencies--and I will speak to my agency--are using 
these devices. I think that I would be correct if I were to 
indicate that what we are doing in New York is probably 
unparalleled anywhere else in the country at the moment. We 
have been fortunate, through Federal grant funds as well as 
asset-forfeiture funds, to have been given hundreds of millions 
of dollars so that we have been able to develop technology that 
we will be seeking to share with my colleagues across law 
enforcement and the fire services--lessons learned, as you 
will, as we move forward with this technology.
    But it is essential that we get this technology into the 
hands of our police officers, so that if I am looking for a 
terrorist on a terrorist alert, I can send out his information, 
his photo, to 36,000 officers instantly. If I am looking for a 
lost child with autism, I can send out that photo. My officers 
instantly, through their various apps, can access just about 
everything that we have, in the way of intelligence, on an 
issue.
    So it is 21st Century technology that has come, fortunately 
very early in the 21st Century, and it is going to be essential 
going forward.
    Senator Carper. All right. Thank you. My question was about 
the training. We are not going to pursue this any----
    Commissioner Bratton. Training is absolutely essential in 
the job, but where we are with the training is that we are 
learning every day. The creativity of our officers and how they 
use these devices, we are keeping a running journal on how they 
are using the devices to creatively use the information, solve 
crime, and connect with the community. The connection with the 
community is one of the principal benefits. So the training 
that we give initially is, we are training them----
    Senator Carper. That is good.
    Commissioner Bratton. We are learning from them also.
    Senator Carper. That is good. You mentioned connections to 
the community--and I only have a limited amount of time, so I 
apologize for interrupting you. Secretary Johnson just hosted 
for breakfast the leadership of the homeland security 
authorizers in the House and the Senate, as well as the 
appropriators. One of the things that we talked a bit about was 
the Department's interest--they are very much interested--in 
our passing legislation that authorizes something called 
``Community Partnerships and Countering Violent Extremism 
(CVE).'' And the idea there is to go to the root causes. And it 
is all well and good that we degrade and destroy ISIS--I think 
that that is critically important. It is important that we do a 
very good job of vetting the people that are trying to come 
here, either as refugees, through the Visa Waiver Program 
(VWP), or through any other kind of program. But it is also 
important that we figure out how to reach out into the 
community. It could be to faith-based groups, it could be to 
nonprofit organizations, or it could be to others. And what the 
Department is trying to do--and we have given them some money 
to create the entity, have the leadership, and get the grants--
to have $50 million for grants.
    Would you just respond to this approach? Is this a valuable 
approach for us to pursue. Mark, do you want to go first? That 
way I do not have to say your last name. Ghilarducci?
    Mr. Ghilarducci. You guys will get it.
    Senator Carper. It is coming to me. Go ahead. Just be very 
brief.
    Mr. Ghilarducci. Yes. Let me just say that there is nothing 
linear about any of these homeland security and 
counterterrorism efforts. It has to be a whole-of-community 
approach. If we are really going to counter this, it has to 
involve all of these entities--nongovernmental all the way down 
to school kids.
    This dynamic is changing our country and we need to be 
informing and empowering people to, not only recognize what is 
happening, but to be a part of the solution.
    Now, that can be done while protecting civil liberties and 
our constitutional rights. But, much like we have seen in 
history in the past, there are certain things--certain 
threats--whether they are natural or man-made, where we want to 
empower folks to be able to make themselves a part of the 
solution.
    So this effort that the Secretary is talking about is a 
good one because it does actually begin that process of 
countering and----
    Senator Carper. I am going to ask you to hold it right 
there. Thank you very much.
    Raise your hand if you think that what the Department of 
Homeland Security is pursuing is a smart idea.
    Let the record show that four to one say that it is a smart 
idea. Commissioner Bratton, we will talk with you about it 
later. Thank you.
    Chairman Johnson. Senator Baldwin.
    Senator Baldwin. Thank you. I appreciate all of your 
testimony. I want to start where the conversation is right now. 
We are talking about communication. We have been talking about 
communication at the local, State, and national level, talking 
about communication among peer agencies--and how we can do a 
better job if we have a ``coach'' rather than silos, and 
talking about public and private conversations as well as 
conversations within governmental agencies.
    Chief Kerr, you talked a little bit about interoperability 
in your testimony, especially regarding real-time response to 
an emergency--whether that emergency is man-made or naturally 
occurring. I want to just use a quick example. Mr. Chairman, I 
have some testimony from Chief Gregg A. Cleveland, the fire 
chief from La Crosse, which I would like to ask unanimous 
consent to enter into the record.\1\
---------------------------------------------------------------------------
    \1\ The statement from Chief Cleveland appears in the Appendix on 
page 110.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Baldwin. Great.
    The reason that I raise this relates back to some of the 
concerns that I expressed about the movement of hazardous 
materials--obviously subject to an accident if it is by train 
or even if it is by truck, but also subject to nefarious 
terrorist activity.
    In La Crosse, Wisconsin, where Chief Cleveland works, they 
have invested huge amounts of money into upgrading their 
communications equipment to respond to a real-time emergency. 
La Crosse is on the Mississippi River. La Crosse has a rail 
line running through it along the Mississippi. On the other 
side--the Minnesota side--there is also a rail. Both transport 
hazardous materials on a daily basis. Their upgraded 
communication system could not operate with the Minnesota 
side--even though they had just invested a very significant 
amount of local resources with that upgrade.
    What is your sense of the status right now, in terms of 
interoperability? And I would certainly be interested in all of 
you--hearing your perspective briefly on where we are right now 
with those investments as well as how you would be able to 
communicate in real time during an emergency--natural or man-
made--with the agencies that you need to coordinate with. Let 
us start with you, Chief Kerr.
    Chief Kerr. Thank you, Senator Baldwin. The FirstNet, which 
I mentioned, is the federally designated network and it is an 
independent entity within the U.S. Department of Commerce. They 
are the ones that have been charged with completing and working 
out the 20 megahertz band that was designated for 
interoperability.
    The first part of that is going to be for sharing data only 
and then the voice transmission will come second. So the land-
to-mobile radio system, which Chief Cleveland was talking 
about, has its limitations when it is built out only to 
communicate within its own entity. That is a critical part of 
being able to communicate and share information ``across the 
river'', so to speak, which you are not able to do.
    The answer eventually will be FirstNet, but it is not going 
to come in the next year or two.
    Senator Baldwin. Let us go down the panel. Chief Sparks, 
can you talk about your reality on the ground in Everest?
    Chief Sparks. Actually, countywide in a scenario, we do 
have interoperability. So, police, fire, and EMS, we are going 
to be coordinated, as far as our communication goes.
    Commissioner Bratton. Where we are is certainly not where 
we need to be. We are making progress all of the time. 
Recently, Congress--yourselves--voted to increase the spectrum 
available to us--dedicated spectrum--which is critical to 
interoperability. But every community is still wrestling with 
it. In my city, by the end of this year, finally, my subway 
cops--the cops who work below ground and then the others who 
work above ground--will be able to use radios below or above 
ground without having to go through a whole series of 
connections to try and talk with each other. And, similarly, we 
are continually improving our relationship communications with 
our fire colleagues.
    But we still have a long way to go in this country. It is 
going to cost a great deal of money to do it. It can be done, 
but the devil is in the details--and the devil is in the 
budget.
    Senator Baldwin. Is that your most significant gap, the one 
you pointed out with the subway police?
    Commissioner Bratton. It is a significant concern, 
certainly in an active-shooter issue and in a disaster issue. 
The interoperability capabilities that we have seen time and 
again in every one of these instances is the inability to 
communicate in real time.
    Senator Baldwin. Mr. Davis.
    Mr. Davis. We have cobbled together a system of 
interoperability in Boston that works effectively. It is not 
pretty, but it gets the job done. But that interoperability is 
based upon the T-band that the chief mentioned earlier. And the 
FirstNet legislation removes that T-band from us at a 
particular point in time. And with the slow progress of 
FirstNet, we need to address that issue because if we lose the 
T-band, then we lose our interoperability in Boston.
    Senator Baldwin. Mr. Ghilarducci.
    Mr. Ghilarducci. I would just say that there is no silver 
bullet with interoperable communications. And I think that 
initially after 9/11, when we were talking about interoperable 
communications, there was the thought that you could lay down 
an overarching system nationwide--and I think that this is the 
concept behind FirstNet, which we have been engaged with.
    But in the absence of that--and leading up to that--we have 
dealt with a lot of regional interoperable capabilities. 
California, specifically, has a very robust mutual-aid system. 
We move resources up and down the State for disasters all of 
the time, and so that precipitates the need to have multiple 
agencies talking to each other in different jurisdictions. A 
lot of that is done via mobile interoperable communications 
capabilities, which have to be put in place. It is backed up 
through a redundant system to the Statewide Microwave Network 
that can support that. And we have had some regional projects, 
like the L.A. Regional Interoperable Committee (LA-RICS) and 
the Bay Area Regional Interoperable Communications Systems 
Authority (BayRICS). There has been a lot of engagement by the 
private sector into that, which has complicated the matter a 
little bit. I am sure that you do know, in the Bay Area, that 
really was a large factor that actually caused that BayRICS 
project to end.
    So I would say again, like the other panelists have said, 
we have further to go on the interoperability. But, there are 
pockets of development that have been put in place in 
California that have worked pretty well.
    Senator Baldwin. Thank you.
    Chairman Johnson. Thank you, Senator Baldwin.
    Again, I want everybody to be mindful of the clock and of 
wrapping things up so that we stay on time. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    I want to discuss making sure that we are all taking a 
``one team, one fight'' approach and sharing information, 
because if there is one thing that I hear over and over again 
when talking with my first responders, it is that, once an 
incident happens, we are all in it--and then, there is that 
immediate response of collaboration and cooperation--but that 
starts eroding, in terms of what we know, what we can find out, 
who is talking to who, and where we can go from here. And I 
think, Director, you spent a lot of time in your written 
testimony on this issue. We had certainly hoped that after 9/
11, when we talked about these communication gaps, we would be 
further along in making sure that there was a fair amount of 
Federal to State and local respect for the need for data, for 
information, and for intel.
    You raised a lot of these concerns in your testimony. You 
did not offer us a whole lot in the way of solutions--other 
than a ``let us do better'' kind of systemic structure that we 
could be looking at which could be helpful as we deal with your 
Federal partners. So could you offer some concrete examples of 
how we could do better in terms of information sharing?
    Mr. Ghilarducci. Well, let me just start out by saying that 
the overarching information sharing structure and our 
collaborative efforts have improved exponentially since 9/11, 
to use that as a baseline. That does not mean that we do not 
need to do more, and as we have these events that occur, like 
Boston, San Bernardino, or Chattanooga, we learn little bits 
each time about what has worked and what still needs to be 
improved.
    I think that generally there is a sense in the 
organizational cultures that exist to want to keep information 
sort of inside their organization. This is not just at the 
Federal level. It is also at the local level and at the State 
level. And so, we need to build into our training programs 
right from the beginning--in our academies and in any of the 
training programs that we are doing on terrorism--curriculum 
expressing the importance of sharing information. Really one of 
the cornerstones of being able to counter terrorism is sharing 
critical information amongst all of the players. It does not 
matter that I am wearing a State patch and he is wearing a 
Federal patch and she is wearing a local patch. When it comes 
to this--that is the concept of ``one team, one fight''--and we 
should be able--we all have clearances. We should be able to 
all get that information appropriately.
    Senator Heitkamp. I understand what you are saying, 
Director, but what you are talking about is changing the 
culture--not systemic changes. And I am interested in any other 
comments from any of the other panelists in terms of how we 
institutionalize cultural changes, not just say, ``Let us do 
better, let us work together better''. So maybe, Mr. Bratton, 
you can help me here.
    Commissioner Bratton. I think that at this particular time, 
I could point to my city as a model of what you are trying to 
get to. For many years in New York, the collaboration was not 
all that it could have been. We were dealing with a combination 
of personalities, skill sets, and intelligence handlers not 
trained to the same level. The BENS Report that both 
Commissioner Davis and I would recommend to the Committee 
speaks to a lot of these issues: the importance of leadership, 
the importance of the collaboration of that leadership, which 
pushes down into the organization, but also the creation of 
systems that ensure the sustainability that you are talking 
about, and also the training of personnel. A major gap in our 
situation is our intelligence handlers. Many of them come into 
the organization and within a couple of years they leave 
because there is no upward mobility--and the quality of 
training is not consistent across the agencies.
    Senator Heitkamp. One of our roles here is to hold Federal 
agencies accountable, is to have that oversight--that kind of 
accountability. In order to do that, we need something more 
concrete than ``You need to change your culture'' or ``You need 
to be more communicative.'' We need to have benchmarks or 
measurements that can, in fact, be enforced and will, in fact, 
build a better culture because there will be a known list of 
expectations.
    I am curious about--and I will look at--the BENS Report and 
take a look at those secondary sources. But you are all here 
right now--and we have training needs and we have equipment 
needs--I recognize all of that. We are working hard to make 
sure that we are using everything as efficiently as we can. But 
I think that it is more elucidating to get to this problem of 
information sharing, which I think is critical for the 
protection of the citizens of this country. And so, where are 
the benchmarks so that we can say, ``Look, this is what our 
expectation is. How are you communicating beyond the fusion 
centers? Are these fusion centers simply box-checking or are 
they actually doing what we expect them to do? ''
    Mr. Sparks, you and I come from the same small-town 
universe--actually, you are from a very large town in my 
universe. And it needs to filter down, not only to the major 
cities and not only to the major States, but we also need to 
have that trust level with States like North Dakota and 
Wisconsin. So what would you offer in terms of our ability to 
look at holding Federal agencies more accountable?
    Chief Sparks. Well, let me give you a classic example. I 
talked to one of the chiefs in our area. He retired just a 
couple of years ago as a Federal Supervisory Police Officer. He 
did not want me to state the specific organization. But he said 
that he was frustrated because he had a lot of information that 
would come to him--terrorist-related information--and he would 
have specific information, but he had local contacts who he was 
not allowed to share anything with.
    Now, I understand the need for secrecy on an active 
investigation, but some of this was general information: ``This 
person is going to your community. He is meeting up with this 
person.'' And he said that he was frustrated because he could 
not share that information with local law enforcement. And, as 
he moved up the chain of command and asked why, he said that it 
was because those local law enforcement officers did not have 
security clearances.
    So, to touch on some of the other comments here, you have 
to be able to eliminate some of that. And, even if you cannot 
trust local law enforcement with information, we are shooting 
ourselves in the foot. We are not going to be able to prevent a 
lot of this stuff. You are missing 80 percent of law 
enforcement agencies across this country. You have to break 
down some of the policies that are inhibiting that.
    Senator Heitkamp. I think that there are a lot of us here 
who go into the secret, hidden room and hear things, only to 
walk out and see them on the front page of the New York Times. 
We share your pain in terms of overclassification and the 
overprotection of data. And that is something that we need to 
be talking about, because you cannot get the expertise of the 
men and women who are the eyes and ears--who are on the street 
every day and could say, ``Oh, that is what they are talking 
about. We have seen that.'' In fact, doing so builds on that 
intelligence. We have to get through this issue.
    And so, thank you, we look forward to any additional 
suggestions that you have going forward. My time is up.
    Chairman Johnson. Thank you, Senator Heitkamp. That might 
be a good subject for a hearing, the overclassification of 
material, because I think that it is certainly within our 
Committee's jurisdiction on oversight, but it potentially even 
falls under legislative jurisdiction. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. First of all, I just want to thank the 
panel. Your leadership is extraordinary. Having been a mayor 
and having had to deal with the challenges of an urban police 
department, I am aware that every single day we have officers 
out there who are doing heroic things that never make the 
papers or never make the news, but ultimately that are saving 
American lives and securing property. So I am grateful for your 
service and your commitment is just something that is worthy of 
respect.
    I would like to first talk really quickly about the idea of 
dual usage. It has come up a few times. The reality is that we 
do all of this work to prepare for counterterrorism, but our 
first responders, when gunshots go off, they are responding to 
a situation.
    Now, there have been at least 80 mass shootings, as defined 
by four fatalities or more, since the Columbine massacre of 
1999. Nine of those mass shootings were at schools. Less than 
10 of these incidents have been described as a product of 
homegrown extremism. And when I am talking about that, I am 
talking about mass shootings, not bomb threats or other plots.
    Many capabilities which support terrorism preparedness 
simultaneously--obviously--support preparedness for these other 
hazards, which are becoming incredibly frequent in our Nation.
    And so, what I would like to understand is, as we are 
funding a lot of these things--really two sides of this--one 
is: Can you discuss sort of the dual use, why this is helpful 
in that effort? But then also, Mr. Ghilarducci----
    Mr. Ghilarducci. You guys are going to be perfect at 
pronouncing it when we are all done. [Laughter.]
    Senator Booker. Thank you very much. ``Booker'' is a hard 
one, too, so I feel your pain. But you talked about how it 
might be straining some of these resources because there are 
multiple usages for them. So I would just like to understand--
and perhaps starting with Commissioner Bratton, who I owe a lot 
of gratitude. We share a metropolitan region. The work that you 
and your department do benefits everybody in the New York City 
region. I like to think of it as the Newark region. But I want 
to thank you for your leadership. I would love to get your 
thoughts about this.
    Commissioner Bratton. Actually, you raise a great point, 
because one of the good things, if you will, about the issues 
of terrorism--and particularly the form of terrorism that we 
are most concerned with in this country at this time: the lone 
wolf--is in many respects--other than motivation--not different 
than what we are dealing with with the active shooters, with 
all of their various motivations. The response is very similar. 
We learned after Columbine that we have to get in there and get 
the shooter. We learned through the various terrorist acts 
committed around the world that we have to get in there and get 
the shooter. And we are constantly learning about how to deal 
with the shooter, while at the same time preparing to deal with 
the victims who are in the same location while we go in.
    So the duality is a strength that we can build on because 
we can train our officers to deal with the current terrorist 
threat--and the most significant one currently is an ISIS-
inspired or ISIS-directed assailant--and at the same time, in a 
country that has as many guns as we do, where mass killings 
have become a very commonplace circumstance and one that our 
officers--all 800,000--and our firefighters increasingly are 
drawn into, we can prepare them for all active shooters. So 
training for one is effectively training for the other.
    Senator Booker. Yes, please, Chief.
    Chief Kerr. I would just like to comment on the dual threat 
and the dual use. I am proud to say that in Austin we have 
worked extensively with our law enforcement partners and have a 
developed, strategic operating plan that we use and have 
drilled and exercised on. And I think that the importance 
here--how you all can help--is first of all by providing those 
opportunities and, second, by providing the funding that will 
allow us to continue to hold those large-scale exercises and 
drills so that we are practicing what we need to do and sharing 
standard operating procedures. This way, we are skilled at 
getting into the ``warm zone,'' applying those tourniquets, and 
pulling people out that are savable and then allowing law 
enforcement to protect us and go after the shooter. Let the 
fire service or the EMS service get in there, get the people 
out, and get them into the cool zone where they then can be 
transported for treatment.
    Senator Booker. Great. Would somebody else like to comment?
    Mr. Davis. Thank you, Senator. The issue of dual use is 
extremely important in the city of Boston. We leverage the 
funding that we have been using for the fusion center to work 
on crime analysis across the board. The intelligence streams 
are all the same. We are looking at different crimes that are 
occurring and deriving an incredible benefit, reducing common 
crime and violent crime in the city by centralizing those 
functions into one group. They are specially trained. They 
become very good at the numbers--at predicting where crime is 
going to occur--so that our deployments are much more 
effective. It works very well for us in Boston.
    Senator Booker. Thank you. Mr. ``G''?
    Mr. Ghilarducci. Actually, I think that what you saw in San 
Bernardino was the execution of how dual-use training and 
policies and procedures came together. Those officers, those 
firefighters, and the Special Weapons and Tactics (SWAT) medic 
program were all trained. In fact, at the time of the San 
Bernardino shooting--that exact time--we had a multiagency 
active shooter training going on. I do not know if you knew 
this or not, but, in fact, many of the people in the class 
thought that the actual event at the health center was part of 
the exercise--until they realized that it was not.
    One of the things that I have been able to do in my role as 
HSA is drive funding--and put requirements on that funding--so 
that fire service, law enforcement, and EMS, which are going to 
develop a training program in these kinds of things, have to 
come together around the table and development common sense 
operational constructs and build that into everything across 
the board, from school safety to hospital safety. And that 
really has been a benefit to all of----
    Senator Booker. Thank you, Mr. Ghilarducci.
    A last question in 30 seconds, Commissioner. So you have 
heard a lot here. If you were a U.S. Senator--we are having 
issues with interoperability, with critical investments being 
made so that we can do the training. There have been some 
concerns about funding programs. You are obviously a big-city 
leader, but you see States like mine that have lots of small 
towns--not necessarily the experience that you have--working 
together. Could you give like three things that you would do 
and that you would focus on if you were a U.S. Senator?
    Commissioner Bratton. Funding is absolutely critical. The 
development of standards, as the Senator spoke to, is also 
critical. And, third, in this day and age, the issue of 
communications is absolutely critical across the line, up and 
down--and that also requires funding. So I would suggest your 
role in the U.S. Senate--as well as your colleagues' role in 
the House--is to ensure that funding is available for hometown 
security, because hometown security is what homeland security 
is all about.
    Senator Booker. Thank you.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman. I want to thank all of 
you for being here today.
    Commissioner Davis, I wanted to follow up regarding the 
Boston bombing terrorist attack--I really appreciate your 
leadership on that.
    Mr. Davis. Thank you, Senator.
    Senator Ayotte. You came before this Committee, and you and 
I talked about issues with the JTTF. I raised these issues with 
Director Comey of the FBI, and as I look at the background we 
received on this hearing today and what happened in Garland, 
Texas--in that situation you also had the FBI tracking one of 
the individuals involved. The FBI sent a memo to the Garland 
police and to the North Texas JTTF hours before the attack, but 
that information never got to the actual patrol officers who 
were there. As we talked about what happened post-Boston and 
the things that needed to be communicated at the local level--
something that Chief Sparks raised as well--the question is: is 
how do we stop that? The reality is that it is a patrol officer 
who is likely to come upon one of these situations. The FBI is 
not out roaming the streets in the way that the patrol officers 
are. Where are we now with the JTTFs in terms of disseminating 
that critical information to the officers? And have we improved 
that? How do we get at this fundamental issue?
    I was very interested that you brought up the concept of a 
``coach''. Who should that ``coach'' be? Because you talked 
about DNI. Right now, as I look at this system, it seems like 
the FBI is the ``coach'', but we still have instances where--
whether it is a security issue or , whether it is a need-to-
know issue--the information is not getting to the front lines. 
We would love to get your impression, Commissioner Davis, on 
that. And we would love to get your impression as well, 
Commissioner Bratton, Chief, and anyone else who wants to jump 
in.
    Mr. Davis. Thank you, Senator. I appreciate that, and I had 
a great team in Boston. It was a real team effort there.
    Prior to the Boston incident, we had two special agents in 
charge in Boston, Warren Bamford and Rick DesLauriers. Both of 
those men were incredible partners and opened up the place to 
us. We worked very closely with them. Director Comey and I have 
spoken since I stepped down. I believe that the FBI wants to do 
the right thing.
    However, there are silos and bureaucracies involved, and 
when that happens, things start to break down. And despite the 
best intentions of everyone involved, it really is important 
that someone is auditing the functions. Every year, the FBI 
comes into the Boston Police Department and audits our motor 
vehicle checks to make sure that they are all legitimate. But 
who is auditing for larger issues? Who is looking at the 
transfer of information----
    Senator Ayotte. Is anyone doing that right now within the 
Federal Government?
    Mr. Davis. No, absolutely not. And so, that really needs to 
happen. And I mentioned the DNI. I just think that if all 
partners are equal, then the ``coach'' cannot be one of the 
partners. I think that it needs to be somebody----
    Senator Ayotte. Agreed. It has to be someone who is not 
directly in the line of command--that is what you are saying.
    Mr. Davis. Right, because then you have the same problem of 
being protective of your information and it goes back to the 
old issue of police wanting to make the busts themselves. 
Everybody wants their own information, because if you give it 
to somebody else, then you might lose the arrest.
    But the other issue that you brought up, the technology 
side of things, is extremely important, Senator. Going back to 
the NYPD, when those two officers were killed, Baltimore had 
information that was faxed--pictures were faxed from the 
Baltimore police to the NYPD. The state of communication among 
police agencies is really reprehensible in this day and age and 
the use of these devices that Commissioner Bratton has shown 
will help with that. But it needs to be a nationwide 
initiative. It cannot just be department by department, because 
when you set up individual protocols, you have other 
communication problems.
    So there are two levels that you talked about which are 
extremely important, Senator.
    Senator Ayotte. Commissioner Bratton, I wanted to get your 
impression.
    Commissioner Bratton. Prior to your arrival, I had 
displayed a smartphone device that the department has 
customized and will, by March, be in the hands of every one of 
the 36,000 New York City police officers. It is a model and a 
device that can be shared with American law enforcement--and it 
was developed very specifically after the murder of our two 
officers--because the messaging--the traditional messaging--the 
length of time that it took to get information out to the field 
was too long. And in any event, even as the information arrived 
in New York, it would have been too late to save the lives of 
those two officers.
    With this instant messaging now, I can instantly send out 
an alert to 36,000 officers. I can override everything else 
that they are doing and indicate that this is a terrorist alert 
or that there is a ``threat on your life'' alert, and the 
capability can effectively be expanded nationwide with the 
coordination and collaboration of capabilities. So we are 
moving in this direction thanks to technology.
    On the issues of collaboration and leadership, we are very 
fortunate with the leadership of Director Comey, who 
Commissioner Davis and I have had extensive involvement with. 
He is going to be around for about 8 years, and that is 
essential, because in our world, people come and go very 
quickly. He is committed to this. He is trusted by us. He is 
committed to the idea of information sharing, and the 
relationship that we have in New York City with our FBI is a 
direct result of his leadership, indicating that the FBI will 
get along with the NYPD. And the commitment on my end is that 
the NYPD will get along with the FBI. And this is essential.
    So the benefit that we have at this time is that the 
technology is becoming available--and I think that I would 
argue that the leadership's support of collaborative 
relationships is also available and will be around for a while.
    Senator Ayotte. Thank you. And, I think that as you think 
about resources, this would be worthy of a national investment.
    Commissioner Bratton. I think so.
    Senator Ayotte If you think about both the terrorism and 
law enforcement contexts, this would be a huge protection 
measure for the country.
    I wanted to follow up. You mentioned forfeiture briefly, 
Commissioner Bratton. Recently, in the end-of-the-year budget 
deal, one of the things that was grabbed was over $1 billion in 
forfeiture money.
    Commissioner Bratton. Which is a major mistake and 
something that we resent tremendously.
    Senator Ayotte. Yes, so that is why I am asking you about 
it. As I look at what my police officers are doing and what my 
law enforcement in New Hampshire is doing with the forfeiture 
money, it is obvious that we did some really important things--
increasing funding for first responders and funding to combat 
the heroin epidemic facing my State. On the other hand, I think 
that people around here are not understanding the value of 
forfeiture resources and the consequences of taking the 
forfeiture resources that help address the problems for our 
first responders.
    So I just wanted to put that on the record and make sure 
that people understand here. We have to turn this around. We 
should not do this again. These resources are critical to first 
responders.
    Commissioner Bratton. These smartphone devices could not 
have been bought without $160 million of forfeiture money from 
my local district attorney's asset forfeiture fund. It did not 
come from the Federal Government, fortunately, because it is no 
longer there.
    Chairman Johnson. Thank you, Senator Ayotte.
    Two points. I do not think that anybody has asked to have 
the BENS Report entered into the record.\1\ I will do so, 
without objection.
---------------------------------------------------------------------------
    \1\ The BENS Report referenced by Senator Johnson appears in the 
Appendix on page 64.
---------------------------------------------------------------------------
    I actually circled your comment about auditing, and I would 
really like to work with you, Commissioner Davis, to develop a 
way to audit so that it is a positive thing as opposed to being 
viewed negatively. But I would encourage any colleague to work 
with me on that. I turned around to my staff and said that that 
is a piece of legislation that we should work on as a result of 
this hearing. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you. It is an honor to be here in 
front of all of you. I am still in uniform withdrawal from my 
days as a prosecutor. So it is terrific to be with all of you, 
and one of my specializations, Ms. Kerr, was arson prosecution. 
So I spent a lot of time with fire chiefs also.
    A few months ago, I introduced a bill--and I want to 
emphasize this--that would not end any Federal programs for 
local law enforcement and would not cut any funding for local 
law enforcement. One of the things that Mr. Davis touched on in 
his testimony which is profoundly important is that a 
discussion over whether law enforcement is too militarized or 
does not have enough resources is really irrelevant if you do 
not have the trust of your community. I do not need to lecture 
you guys on how important it is, in terms of the rule of law in 
this country, that people have trust that law enforcement is, 
in fact, going to be fair, trained, and competent.
    So, one of the things that we did in carefully drafting 
this bill was to make sure that we did not cut it--we did not 
eliminate programs--but we talked a lot to the National 
Tactical Officers National Association (NTOA) and worked with 
them on the language of the bill. Then, basically, the bill 
requires States to establish certain minimum training 
requirements for any officer with decisionmaking authority on 
the deployment of SWAT--necessitating that SWAT members attend 
some kind of training.
    I believe that most States are already in compliance with 
this. Most States do require some kind of SWAT training. But I 
would ask you all to comment on whether you think--in light of 
the $1 billion in Federal resources that are going to State and 
local law enforcement--that requiring some kind of minimal 
training, through language that was helped to be drafted by the 
National Tactical Officers Association, is a reasonable thing 
for the Federal Government to do. Mr. Bratton?
    Commissioner Bratton. I can speak to that and speak 
strongly in support of it. Training is absolutely essential for 
SWAT entities or for any police officer function. And the trust 
that you are talking about, let us face it, we have a crisis of 
confidence in the American criminal justice system at the 
moment. It is not just police any longer. That has been the 
focus for most of the last 30 years. It now goes to grand 
juries, it now goes to prosecutors, and it now goes to judges. 
Every element of the criminal justice system is now under 
attack because there has been a diminution of trust. We can get 
it back, but it is going to require standards and it is going 
to require training. Training is the heart and soul of it all--
for SWAT teams in particular. It cannot be just an odd 
assortment of people coming together equipped with heavy 
weaponry. They need to constantly train together and they need 
to basically adhere to standards. The organization that you 
referred to has very significant standards for what they would 
want their members to be capable of achieving.
    Senator McCaskill. Does anybody have a problem with the 
Federal Government establishing some kind of minimal standards 
of training for the deployment of SWAT resources that have been 
given to State and local governments by the Federal Government? 
OK.
    Commissioner Bratton. I think that you are talking about 
two different issues. One issue is the equipment that has been 
given to them relative to the standards set for them--because 
the equipment issue is one that is the subject of great debate 
at the moment, as you know--the type of equipment given, how it 
is being utilized, and the lack of standards as to how it 
should be utilized. So there are several different issues.
    Senator McCaskill. That is what this bill would do. This 
bill would say that, if you are going to get this type of 
equipment from the Federal Government, you would be required--
--
    Commissioner Bratton. As to how it should be utilized, how 
it should be----
    Senator McCaskill [continuing]. To have a program in place 
that would require training. The notion is that we would no 
longer--because what we discovered--we discovered a number of 
things after Ferguson in a hearing that we had in this 
Committee. One was that of the three programs--the DHS program, 
the Byrne grant program, and the 1033 program of the Department 
of Defense (DOD)--the leaders of those three programs sat in 
your chairs and they had never met each other before. They had 
never met each other before that day, which was jaw-dropping to 
me. We also learned that there was a proportionality issue, 
where we had little-bitty, tiny departments getting Mine 
Resistant Ambush Protected Vehicles (MRAPs) that had been in a 
shed for years. We had little-bitty, tiny departments getting 
way more military weapons than there were even sworn officers 
in their departments. There did not seem to be any rhyme or 
rationale regarding need and whether or not those communities 
were equipped to handle that equipment. Yes, Mr. Sparks?
    Chief Sparks. I guess that I want to touch on this in two 
respects. Being a smaller community, we have a couple of 
members of our department that are on a countywide SWAT team. 
But our officers--we do not have the luxury that some of the 
larger cities have. We do not have regional SWAT teams. So if 
we respond to an active shooter incident, it is going to be 
patrol officers responding. And when you are talking about the 
equipment needed, they need at least long guns--they need 
tactical rifles. They need, obviously, their ballistic vests. 
But it would be nice to have ballistic shields and helmets--not 
that they are worn, but that they are in those squad cars, 
because, by the time a SWAT team arrives, that incident is 
over. And, the quicker that we can get the appropriate 
equipment to our patrol officers, the better--because they will 
be the ones there. It is not going to be a SWAT team. And it is 
going to be a significant amount of time before we actually get 
people who are SWAT trained or people who have the tactical 
equipment there to respond. So, if we are not equipping our 
frontline officers--all of our officers on SWAT team are 
trained. In fact, we have seven officers in our department that 
are SWAT trained. And we also do a lot of additional training 
as far as active shooter incidents. But they are not all SWAT 
team members. And across America, the majority are going to be 
patrol officers who need that equipment.
    Senator McCaskill. Right. Well, that is why I want to make 
sure--I mean, I think that one of the reasons we wanted to do 
this is to make sure that your department gets that equipment 
that you need and not five Ballistic Engineered Armored 
Response Counter Attack Trucks (BearCats) or five MRAPs that 
were not even ever designed to run on city streets in the first 
place. I guess that that is the argument that I am making, 
getting your department, Mr. Sparks, what you need in light of 
who your personnel are and what your demands are. None of that 
was going on with these Federal programs. There was nobody 
checking, there was no reporting back, and there was no--they 
could not even tell me if the equipment was being used in the 
various communities that were getting it--especially the DOD. 
Once it was out the door, they were done.
    I have been a little disappointed that there has not been 
more robust support for the bill because I think that law 
enforcement is in a little bit of a defensive crouch, and there 
was a sense that well, if you open this up, then maybe somebody 
will take the programs away. I am not going to let anybody--I 
do not want anybody to take the programs away. I have seen how 
they work. I know that they are important. I do think that a 
little bit of tweaking in terms of proportionality and training 
is probably the order of the day--and I would certainly 
appreciate you all taking a look at the legislation and seeing 
your way through to let us know if there are any problems that 
you see with it that we need to fix, which we are willing to 
do. On the other hand, it would be helpful if we could get more 
folks--I think that people are just afraid of doing anything 
and worried that it is going to take something away. I would 
like to see us get beyond that, if possible.
    Thank you all very much.
    Chairman Johnson. Thank you, Senator McCaskill.
    We really could go on and on. There are so many questions. 
But what I would like to do is give everybody an opportunity to 
just make a final comment--please keep it somewhat brief--
before we close out the hearing. We will go in reverse order. 
Mr. Ghilarducci.
    Mr. Ghilarducci. All right. Well, great. Again, thank you 
very much for the opportunity to speak with you.
    This has been a fascinating discussion, and I think that it 
just presented the challenges that we continue to face. The 
threat continues to change. Your support, the support of the 
Federal Government to State and local governments, is 
absolutely critical. And you started off, Senator, saying the 
percentage of funding that is really made available is 
minuscule compared to what the need is. California, since 2008, 
has lost $150 million in homeland security funds. We need to 
reverse that trend and we need to put resources into our 
communities to get us to where we need to be.
    Thank you.
    Chairman Johnson. We need to prioritize spending. 
Commissioner Davis.
    Mr. Davis. Well, thank you for your attention to this 
issue, Senator. I just truly believe that this threat has 
created a theater of war, domestically--and we need to address 
it like that--the geographic distribution of these pieces of 
equipment, not to each individual small town, but 
geographically, so that they can be called in, if necessary.
    But the bottom line is--and it goes to the last question 
that was asked--that the balance between the militarization of 
policing and the community policing that we all want in our 
communities requires strong leadership on the part of Chief 
Sparks, Commissioner Bratton, and other people who are in those 
positions across the Nation. They have to keep pushing not to 
allow that military mentality to take over, remembering that we 
are there to keep the peace--not just to arrest people.
    Thank you, Senator.
    Chairman Johnson. Chief Kerr.
    Chief Kerr. Thank you, and I appreciate the invitation. I 
just want to remind all of you that the title of this hearing 
is ``Frontline Response to Terrorism in America.'' I encourage 
you not to forget about the part and the role that is played by 
the fire service and EMS. We realize that there is funding 
needed to help our law enforcement partners, but I encourage 
you all to make sure that we do not forget and ignore the fire 
service and EMS.
    Just one comment on what Commissioner Bratton talked about 
regarding his device right here that he keeps holding up and 
the information that they can get from that. Imagine the 
information that can go to every first responder in America 
through a smartphone or a smart device--and that really is part 
of what FirstNet is about--transmitting data to make sure that 
a first responder who goes into a house to help somebody that 
has a seizure where the man sits up and shoots the first 
responder in the chest, that if that first responder had 
information, that this person had behavioral issues prior to 
going into that house, then the first responder may still be 
alive today.
    So, it is important that we are really taking care of our 
first responders who are taking care of our community--whether 
they are law enforcement, fire, or EMS.
    Thank you.
    Chairman Johnson. Commissioner Bratton.
    Commissioner Bratton. Thank you. Well, the issue of concern 
here is terrorism on the front lines, and I will go to Senator 
Booker's comment about duality. It is quite clear that we are 
losing more lives through traditional crime in this country, 
and at the same time, we are very concerned about the potential 
for losing more lives to terrorism.
    The benefit that we have is the duality, the idea that 
while combating one, we can combat the other. So, the 
technology that we have referenced and the collaboration that 
we have referenced, that means that you--who have to make the 
funding decisions as it relates to this issue, terrorism and 
crime--can get double the bang for the buck. That smartphone 
that I held up works for terrorism notifications, as well as 
fire coordination notifications, as well as for crime 
prevention.
    Similarly, so much of what we have talked about, in terms 
of interoperability, the device that works for conveying data 
for terrorism works for conveying data about a fire or a life-
saving emergency. So we do benefit, at this particular time, 
that there is the duality of concern about crime, which takes 
more lives, and the growing potential of more lives being taken 
by terrorism. Actually by solving one, we can solve the other.
    Chairman Johnson. Chief Sparks.
    Chief Sparks. I just want to touch on--when it comes to 
priority and the funding, we need to make sure that all of the 
departments out there at least have the basic level of training 
for active shooter response. It is critical. There are a lot of 
small communities that still do not have that. So, if we can 
funnel that through on criteria that gets it out to those local 
agencies, then that would be great.
    And then, we can encourage the cooperation among these 
small agencies, because they are not going to be responding on 
their own, so that means getting people within counties to 
actually work together and train together.
    And then, regarding the information sharing, we have to 
break down some of those silos--and some of the policies are 
inhibiting that free flow of information.
    And the last point that I really want to talk about--and 
you talked about law enforcement in general as taking a hit--in 
my community, since a lot of these incidents have occurred, it 
is just the opposite. The outpouring of support has been 
phenomenal and the community trusts the department. And I think 
that it is important for you to recognize that these high-
profile incidents do not define who law enforcement is. We have 
people on the front line that are willing to put their lives on 
the line--and do not lose sight of that, because it is that 
local police officer, in whatever community it is, who is going 
to be the one charging in there when an incident occurs--and 
they deserve a little more respect.
    Senator Carper. Can I say something?
    Chairman Johnson. Sure.
    Senator Carper. Before we close, I just want to thank 
Senator Heitkamp and Senator Baldwin, again, not just for 
suggesting this as a topic for a hearing, but also for you and 
your staffs, and for our staffs, who collaborated in inviting 
all of you to come. And you were a terrific panel--and I said 
this to the Chairman. And we generally have very good panels--
but you guys are terrific, and we are grateful, not only for 
your service, but also for what you have done here in conveying 
this information in very helpful ways.
    Thank you.
    Chairman Johnson. Senator Carper, I mentioned this earlier. 
Go to the YouTube page and look at the dashcam video from those 
first responders responding to the Sikh temple shooting. Take a 
look at the pictures of those first responders walking up the 
stairs of the World Trade Center. We see the service and the 
sacrifice.
    I want to thank all of you for your time, for putting 
together this very thoughtful testimony, for your answers to 
our questions, but really thank you for your service to your 
communities, to your States, and to this Nation. Truly, I think 
everybody on this panel would certainly agree with that and 
approve that message. Correct?
    Senator Carper. I am Tom Carper, and I approve this 
message. [Laughter.]
    Chairman Johnson. So, with that, the hearing record will 
remain open for 15 days--and, by the way, I think that you can 
probably expect some questions for the record, and we would 
appreciate your responses to those.
    The record will be held open until February 17th at 5 p.m. 
for the submission of statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:07 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
